              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




       Nationwide Facility Optimization

                       Audit Report




                                             August 26, 2011

Report Number DA-AR-11-009
                                                                        August 26, 2011

                                                     Nationwide Facility Optimization


                                                         Report Number DA-AR-11-009



IMPACT ON:                                     and the Postal Service’s Facility
Facilities management, Operations              Planning standards to determine earned
management, lessors, and customers.            space. In addition we recommend
                                               revising the vice president, Facilities,
WHY THE OIG DID THE AUDIT:                     Report Card to include measurement in
Our objective was to highlight the extent      square footage terms and seek to
of and main reasons for excess space in        include facility optimization goals as part
U.S. Postal Service facilities nationwide.     of the National Performance
                                               Assessment.
WHAT THE OIG FOUND:
The Postal Service has a greater               WHAT MANAGEMENT SAID:
opportunity to reduce interior space than      Facilities management appreciated the
its fiscal year (FY) 2011 target of 2.8        ongoing work in the facilities
million square feet (SF), or 1 percent.        optimization area and stated it is a
From 284 million SF of interior space it       critical and important initiative in the
owns or leases nationwide, we                  Postal Service. Management stated they
statistically projected the Postal Service     are using a comparable standard based
maintains 67 million SF (or 24 percent)        on operational need and Facility
of excess square feet of interior space.       Planning standards to calculate excess
This level of excess is more than the          space. Management also stated they
current commercial vacancy rate of 13.4        will incorporate the reduction of interior
percent.                                       square footage as a measurement into
                                               its Report Card beginning in FY 2012
To better establish strategic targets in       and will pursue the possibility of
line with the presidential and                 incorporating optimization goals into the
congressional direction, the Postal            National Performance Assessment.
Service needs to understanding the
extent of underused property,                  AUDITORS’ COMMENTS
incentivize effective use of facility space,   We acknowledge Postal Service's
and enhance the disposal process and           efforts to establish metrics for excess
leasing procedures. If it disposes of its      space at its facilities. However, without
excess space, the Postal Service could         addressing leasable space in
realize at least $3.48 billion nationwide      accordance with a realty standard, their
over typical and remaining lease terms.        actions to date are non-responsive to
                                               recommendation 1. Management’s plan
WHAT THE OIG RECOMMENDED:                      for establishing goals for space
We recommended the vice president,             reductions for both the facility and
Facilities, use Building Operators             operational functions is responsive to
Management Association or comparable           recommendation 2.
standards to determine leasable space          Link to review the entire report.
August 26, 2011

MEMORANDUM FOR:            TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES

                                 E-Signed by Mark Duda
                              VERIFY authenticity with e-Sign




FROM:                      Mark Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Nationwide Facility Optimization
                           (Report Number DA-AR-11-009)

This report presents the results of our audit of the U.S. Postal Service’s Nationwide
Facility Optimization program (Project Number 11YG031DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Dean J. Granholm
    David E. Williams
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Reasons for Significant Excess Space ............................................................................ 2

   Understanding the Extent of Excess Space................................................................. 2

   Incentivizing Effective Space Utilization Through Performance Measures .................. 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Other Matters – Disposition Process and Procedures Can Be Enhanced ....................... 6

   Sales............................................................................................................................ 6

   Leasing ........................................................................................................................ 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 12

Appendix C: Management’s Comments ........................................................................ 13
Nationwide Facility Optimization                                                                     DA-AR-11-009




Introduction

This report presents the results of our self-initiated nationwide audit addressing
operational risk in the area of facility optimization (Project Number 11YG031DA000).
Our objective was to highlight the extent of and main reasons for excess space in
U.S. Postal Service facilities nationwide. See Appendix A for additional information
about this review.
A Presidential Memorandum dated June 10, 2010, titled Disposing of Unneeded
Federal Real Estate is intended to make better use of real property assets by
eliminating lease arrangements that are not cost effective, pursuing consolidation
opportunities within and across agencies in common asset types, and increasing
occupancy rates in current facilities through innovative approaches. In an effort to
reduce costs associated with maintaining unneeded and underused federal buildings
and generate revenue through the sale of such properties, the U.S. Congress is also
considering a comprehensive real property reform bill. 1
The Postal Service leases or owns more than 33,000 facilities with approximately 284
million interior square feet (SF) to move mail across the country. With three major
efforts 2 underway, the Postal Service has taken action to optimize existing space. The
Postal Service’s fiscal year (FY) 2011 target 3 is to reduce total interior facility space by
2.8 million SF, or 1 percent of the 284 million SF currently in its real estate inventory.
Given the current financial position of the Postal Service, we believe it is critical to
continue taking advantage of technology and improved processes to optimize excess
capacity in plants, post offices, and delivery units.
Conclusion
We statistically projected that the Postal Service maintains 67 million SF (or 24 percent)
of excess square footage nationwide. This level of excess is more than the current
commercial vacancy rate of 13.4 percent. The Postal Service has a much greater
opportunity to aggressively optimize excess space through disposal or leasing than its
FY 2011 target for reducing interior space.
To better establish strategic targets in line with the presidential and congressional
direction, the Postal Service needs to overcome the challenges of:

   Understanding the extent of excess space.

   Incentivizing the effective use of facility space with the appropriate performance
    measurements.


1
  Civilian Property Realignment Act (H.R. 1734) introduced May 4, 2011.
2
  Facility Optimization, Station, and Branch Optimization and Consolidation (SBOC), and Delivery Unit Optimization
(DUO) programs.
3
  U.S. Postal Service 2010 Comprehensive Statement on Postal Operations.
                                                           1
Nationwide Facility Optimization                                                                        DA-AR-11-009



   Enhancing the disposal process and leasing procedures.

We estimate that if the Postal Service initiates disposal 4 action for the excess space we
identified, there is an opportunity to realize at least $3.48 billion 5 nationwide over typical
and remaining lease terms. This amount is not a liquid cash amount but represents a
calculated 10-year savings in lease, custodial, and utility costs. We consider
$1.99 billion as funds put to better use 6 as we have already reported $1.49 billion in
previous optimization audits. See Appendix B for a summary of our monetary impact.

Reasons for Significant Excess Space

Understanding the Extent of Excess Space

The Postal Service does not understand the extent of interior excess space in its
facilities. This is because they do not fully capture leasable and earned SF to enable the
calculation of excess space. In particular, Postal Service does not systemically capture
leasable SF as a metric for its facilities. Since the Postal Service owns more than two-
thirds of the total interior square footage in its facility inventory, by not capturing
leasable SF for owned property it cannot readily measure and manage excess space
beyond what is needed or ‘earned’ for operations. For leased property, we assume that
the interior square footage measured and systemically captured can be used as the
basis for documenting leasable SF and in quantifying excess space.

Secondly, the Postal Service does not currently have standards to identify ‘earned’
space for its mail processing facilities. As a result, we are unable to determine the
amount of excess space, unless we visited processing facilities. The Postal Service is
currently evaluating its mail processing network to identify any opportunities for
consolidation. Without a case-by-case evaluation to establish space needs, the Postal
Service cannot readily identify how much of interior space at its processing facilities is
excess and leasable.

Our research indicates that the majority of realty management organizations —
including the General Service Administration — reference Building Operators
Management Association (BOMA) standards for measuring leasable square footage.
Additionally, our research indicates BOMA and aspects of the Postal Service’s Facility
Planning standards can be used as standards for determining leasable and earned 7
space, respectively.

Because the Postal Service does not reliably calculate excess square footage for each
facility, we used the formula of interior square footage less earned space to project

4
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
5
  This is the net present value of this impact calculated in today’s dollars.
6
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.
7
  We based the earned facility size on Postal Service criteria for planning new space projects using the number of
carrier routes, the number of rented post office box sections, and peak window use.


                                                           2
Nationwide Facility Optimization                                                             DA-AR-11-009



excess space for Post Offices nationwide. In addition, we relied on site surveys to
determine excess space at processing facilities. In our prior audits issued, we estimated
more than 21 million SF of excess space for districts evaluated. Chart 1 summarizes the
amount of excess space by area office for the 20 districts randomly selected and
evaluated.

                        Chart 1 – Prior Audit Excess Space Identified
                                                            Sites
                                                          Visited
                     Area             Districts             with
                                     Reviewed Sites      Excess > Excess SF
                                     Randomly Visited 100 SF 8         Identified
                 Capital Metro            1        30       77%        1,175,094
                    Eastern               3        72       97%        2,800,121
                 Great Lakes              2        83       88%        1,442,962
                   Northeast              2        89       83%        4,389,257
                    Pacific               2       102       94%        1,782,811
               Southeast (former)         3       118       92%        2,894,902
                  Southwest               2        65       91%        2,362,328
                   Western                5       158       83%        4,538,440
                     Total               20       717                 21,385,915

After pilot audits in three districts, we expanded the scope nationwide by randomly
selecting 17 districts for review. We statistically projected these results over the
remainder of Postal Service districts and estimated that excess space in facilities
nationwide is approximately 24 percent of the total interior square footage. This
percentage of excess space exceeds the national commercial property vacancy rate of
13.4 percent, as calculated by the National Association of Realtors (NAR). According to
the NAR’s Quarter 2 of FY 2011 Commercial Real Estate Outlook publication, demand
for commercial space is on the rise as real estate markets are stabilizing, jobs are being
created, and the unemployment rate is expected to drop. In recent years, levels of new
construction have been low, which means the demand for existing space will rise and
vacancy rates will drop. We believe the Postal Service may be in a position to capitalize
on the upward trend to dispose of its vacant space.




8
    We excluded excess measurements of less than 100 SF from monetary impact calculations.


                                                        3
Nationwide Facility Optimization                                                      DA-AR-11-009



Incentivizing Effective Space Utilization Through Performance Measures

Operations performance measures are captured on the National Performance
Assessment (NPA), which is a web-based system that collects performance-related
metrics (such as retail revenue, on-time express mail delivery, and so forth) from source
systems across the organization. These metrics are translated into web-based balanced
scorecards that can be used to monitor the performance of both the entire enterprise
and of individual units across the nation.

Facilities performance measures are captured on the Vice President (Facilities) Report
Card. The vice president developed this report card to measure the performance of
programs such as optimization, energy, leases, and development of employees. Each
program develops its respective performance metrics, and the report card is adjusted
annually.

Although Facilities’ goals recognize the total number of building inventory reductions,
the report card does not have a performance metric associated with reducing excess
space. Similarly, NPA performance measures do not include square footage
performance measures. Therefore, if neither facilities nor operations have goals based
on the reduction square footage, there is less incentive to effectively use existing facility
space.

Recommendations

We recommend the vice president, Facilities:

1. Use the Building Operators Management Association or comparable standards to
   determine leasable space and update the Postal Service’s Facility Planning
   standards for determining earned space. These factors should be the basis for
   calculating the extent of excess space in the management reporting system.

2. Revise the vice president, Facilities, Report Card to include measurement in square
   footage terms and seek to include facility optimization 9 goals as part of the National
   Performance Assessment.

Management’s Comments

Facilities management appreciates the ongoing audit work relating to facilities
optimization and stated it is a critical and important initiative in the Postal Service.
In regard to recommendation 1, management stated they currently use a comparable
standard based on operational need and Facility Planning standards. Facilities eFMS
uses an algorithm to calculate the excess space, which is now recorded as potential
usable excess workroom square footage. Potential excess space is amended and
recorded as evaluated usable excess square footage after the building configuration
and constraints of the space are analyzed. In regard to recommendation 2,
9
    Optimization actions include disposal, outleasing, subleasing, and development.


                                                           4
Nationwide Facility Optimization                                               DA-AR-11-009



management is reporting monthly reduced square footage to the chief operating officer,
but will incorporate it into the Facilities Report Card at the beginning of FY 2012.
Further, they will pursue with senior management the possibility of incorporating
optimization goals into the National Performance Assessment.

Management did not agree with the amount of excess space or the potential monetary
impact reported. Specifically, they disagreed with the method we used to calculate the
value of excess space, as they have outlined in the previous optimization audits. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

In reference to recommendation 1, we acknowledge management’s efforts to establish
metrics that bring transparency to the extent of facility excess interior space.
Specifically, Postal Service calculation of potential useable excess space implemented
during the audit is similar to the metric used by the OIG to determine total excess
space. However, the difference of opinion from the inception of our optimization audits
has centered on leasable versus useable space. The intent of recommendation 1 is to
establish realty standards for building measurements. Industry standards such as
BOMA define leasable rather than useable square footage.

Management did not explicitly address leasable space measurements in their
management comments. Management did subsequently clarify that useable space is a
subset of leasable space that does not require reconfiguration costs. Without measuring
leasable space for their properties using a recognized reality standard, the Postal
Service will not know the maximum extent of square footage that can be optimized.
Thus, we agree with management’s algorithm for capturing potential excess useable
space but express reservation whether facility staff can more accurately indicate excess
space; albeit without a realty measurement standard to ensure consistency. Thus, we
consider management’s comments non-responsive to recommendation 1.

In reference to recommendation 2, establishing goals for space reductions for both the
facility and operational functions will also promote transparency of the Postal Service’s
achievements in reducing excess facility space. Management comments are
responsive to recommendation 2 and planned actions should address the issues
identified in the report.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure; consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            5
Nationwide Facility Optimization                                                                     DA-AR-11-009




Other Matters – Disposition Process and Procedures Can Be Enhanced

Sales

In a prior audit of controls over the selling of assets,10 we found the Postal Service did
not always obtain best value, because internal controls over real estate disposals
needed strengthening. In some instances, the Postal Service did not receive the
optimum value because of leasing back property, selling property below book or market
value, losing an opportunity to maximize revenue, and accepting a deferred payment
plan.

The Postal Service could have realized more sales revenue if it had specific guidelines
requiring leaseback cost comparisons or governing prospective sales that result in less
than the fair market value. In addition, the Postal Service could have benefited more in
instances where sales value was not optimized. We recommended that management
develop updated procedures over the sale of assets, including evaluating the net
present value of alternatives before the sale and enhancing procedures to ensure the
Postal Service obtains the best value.

Leasing

Postal Service procedures as described in Handbook RE-1, 11 Sections 7.4.8, “Sales
Procedures,” and 7.5, “Outleasing,” provide the basic framework for disposing of surplus
Postal Service property, but a checklist or guidelines to ensure consistent application of
the policy throughout the Postal Service did not exist. Furthermore, the December 2010
update to Handbook RE-1 states that Chapter 7, Realty Asset Management, is
undergoing a revision.

As such, a contractor 12 we worked with developed lease process guidelines that include
a checklist based on “best practices” that can be used to prepare property for leasing in
order to maximize revenue. The process steps include: evaluating property for leasing
at the highest and best use; developing a plan of action, including selecting a broker
and developing marketing and construction plans; and negotiating the lease, executing
the documents, and filing the forms.

The contractor made recommendations for a realty disposition process, which we have
summarized. Specifically:

    When establishing a disposition plan for excess space, consider economic and
     strategic factors by using a decision matrix to assist in evaluating all available
     alternatives for the use of that excess space.
10
   Audit report, Facilities Optimization: Controls Over the Selling of Assets (Report Number DA-AR-10-004, dated
June 1, 2010.
11
   U.S. Postal Service Facilities Guide to Real Property Acquisitions and Related Services, May 2006, Section 7,
Realty Asset Management.
12
   Facility Utilization Study, Task Order SO-11-001, prepared by NGI Solutions.


                                                         6
Nationwide Facility Optimization                                              DA-AR-11-009




   Once space has been determined to be leasable, use a checklist designed to assist
    with prioritizing spaces to be leased and preparing the space to be leased, and,
    ultimately, guiding the lease process to its conclusion.

Although we recognize the Postal Service uses computer modeling to factor economic
and strategic considerations in optimization decisions, it can also consider the
contractor’s ‘best practices’ as it revises its realty asset management policy. We believe
that the suggested contractor’s guideline would be beneficial and provide an actionable
checklist on how to dispose of excess space across the organization.




                                            7
Nationwide Facility Optimization                                                DA-AR-11-009



                                   Appendix A: Additional Information

Background

The Postal Service leases or owns more than 33,000 facilities with approximately 284
million interior SF to move mail across the country. The consolidation or closure of
facilities is a widely discussed topic. For example:

   U.S. Congress prohibits the Postal Service from closing facilities solely for operating
    at a deficit.

   Labor unions have well-organized campaigns to oppose consolidation or closure
    efforts.

   Lessors are concerned with protecting their investments in Postal Service facilities.

   Using social media, local communities have started grassroots efforts to save local
    post offices.

The Postal Service’s Facilities and Retail Management organizations have continuously
implemented initiatives to optimize space. In April 2008, the vice president of Facilities
initiated the Facility Optimization Program to balance the portfolio of existing delivery
facilities with the Postal Service’s current and projected space needs. The process
entails identifying, investigating, analyzing, and approving space before executing the
approved optimization action. Established in May 2009, the SBOC program provides
tools and strategies to evaluate the effectiveness of Postal Service retail placement in
support of the Transformation Plan’s goals of improved service and increased revenue.

In March 2010, the Postal Service issued its action plan for the next decade titled
Ensuring a Viable Postal Service for America, which provides a fundamental framework
to address long-term financial viability issues. The plan consists of two complementary
but distinct categories of necessary action: actions that are within management’s control
(that is, that can be taken by the Postal Service without the need for regulatory or
legislative intervention) and those structural, systematic changes that require regulatory
or legislative action to implement. In October 2010, the Postal Service consolidated
optimization efforts to manage excess space. The goal is to manage the excess space
portfolio for all space types in one overall optimization initiative. This integrated effort
between Facilities Headquarters and the field offices will use computer modeling and
equipment analysis along with local analysis and metro planning to form a headquarters
and district/area partnership. In addition, the Postal Service initiated the DUO process in
December 2010 to establish methods for relocating delivery operations into a larger
office with excess space to increase operational efficiencies. The DUO Guidelines serve
to facilitate uniform implementation across the country and includes detailed process
steps and a process checklist.




                                                8
Nationwide Facility Optimization                                                DA-AR-11-009



The Postal Service has the option to optimize excess real property through:

   Disposal – selling property.
   Outleasing – leasing owned property.
   Subleasing/Reassignment – reassigning leased property.
   Development – investing in real estate projects.

Objective, Scope, and Methodology

Our objective was to highlight the extent of and main reasons for excess space in Postal
Service facilities nationwide. To accomplish our objective we visited selected facilities,
conducted interviews, and examined other relevant materials. Additionally, we contracted
with a third party to provide insight into managing excess space when the Postal
Service’s realty management practices are compared to commercial and federal agency
practices. We worked with the OIG experts to statistically project the monetary impact
reported in our previous audits over the rest of the country to identify the extent of excess
space across the nation.

We conducted this performance audit from May to August 2011 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on July 18, 2011, and included their comments where
appropriate.

We assessed the reliability of the data used to project the results over the universe
during our previous audits on facility optimization, and we determined it to be sufficiently
reliable; therefore, there was no need to reassess the reliability of the data.




                                             9
     Nationwide Facility Optimization                                                DA-AR-11-009




     Prior Audit Coverage

     The OIG has issued 10 reports related to the overall objective of identifying potential
     optimization opportunities for the Postal Service. The audit reports identified that the
     Postal Service could be more aggressive in reducing excess space and found more
     than 21 million excess SF. Management generally agreed with our findings and
     recommendations but did not agree with the amount or value of the excess space in our
     prior reports. We also reported that leasing excess space to federal entities is another
     option to reduce excess space. In this endeavor, the Postal Service would need to
     enhance internal controls over collecting rental income to effectively expand tenancy
     agreements.

                                           Final
                                          Report         Monetary
 Report Title         Report Number        Date           Impact              Report Results
Internal            DA-MA-11-003        6/17/2011       $1,532,533     The OIG identified
Controls Over                                                          noncompliance with policies
Facility Rental                                                        governing rental income and
Income                                                                 significant payment integrity
                                                                       issues resulting in at least $1.5
                                                                       million of rental income at risk.
                                                                       The Postal Service agreed with
                                                                       the findings and
                                                                       recommendations.
Facility            DA-AR-11-006        5/13/ 2011      $172,248,822   The OIG identified 1.7 million SF
Optimization:                                                          of excess space. The Postal
Pacific Area                                                           Service agreed with the
Districts                                                              recommendations but disagreed
                                                                       with the monetary impact.
Facility            DA-AR-11-007        5/13/2011       $151,624,144   The OIG identified 3 million SF
Optimization:                                                          of excess space. The Postal
Former                                                                 Service agreed with the
Southeast Area                                                         recommendations but disagreed
Districts                                                              with the monetary impact.
Facility            DA-AR-11-005        4/22/2011       $19,977,519    The OIG identified 700,000 SF
Optimization:                                                          of excess space. The Postal
Great Lakes                                                            Service agreed with the
Area                                                                   recommendations but disagreed
                                                                       with the monetary impact.
Facility            DA-AR-11-003        3/1/2011        $99,618,007    The OIG identified 2.3 million
Optimization:                                                          SF of excess space. The Postal
Southwest Area                                                         Service agreed with the
                                                                       recommendations but disagreed
                                                                       with the monetary impact.




                                                   10
     Nationwide Facility Optimization                                                DA-AR-11-009




                                           Final
                                          Report         Monetary
 Report Title         Report Number        Date           Impact              Report Results
Facility            DA-AR-11-004        2/25/2011       $36,312,795    The OIG identified 1.17 million
Optimization:                                                          SF of excess space. The Postal
Capital Metro                                                          Service agreed with the
Area                                                                   recommendations but disagreed
                                                                       with the monetary impact.
Facility            DA-AR-11-002        2/11/2011       $190,656,882   The OIG identified 2.8 million SF
Optimization:                                                          of excess space. The Postal
Eastern Area                                                           Service agreed with the
                                                                       recommendations but disagreed
                                                                       with the monetary impact.
Facility            DA-AR-11-001        2/7/2011        $173,835,881   The OIG identified 4.5 million SF
Optimization:                                                          of excess space. The Postal
Western Area                                                           Service agreed with the
                                                                       recommendations but disagreed
                                                                       with the monetary impact.
Excess Space        EN-AR-11-001        11/10/2010      $19,396,129    The OIG found there were
in Mail                                                                various opportunities to improve
Processing                                                             the use of space at plants in the
Facilities in the                                                      Suncoast District, such as plant
                                                                       consolidations or relocating
Suncoast
                                                                       retail operations. The Postal
District                                                               Service agreed with the
                                                                       recommendations.
Facility            DA-AR-10-010        8/25/2010       $446,258,222   The OIG identified 2.4 million SF
Optimization:                                                          of excess space. The Postal
New York                                                               Service agreed with
District                                                               recommendations but disagreed
                                                                       with monetary impact.
Facility            DA-AR-10-009        8/25/2010       $23,517,019    The OIG identified 740,529 SF
Optimization:                                                          of excess space. The Postal
Chicago District                                                       Service agreed with
                                                                       recommendations but disagreed
                                                                       with the monetary impact.
Facility            DA-AR-10-008        8/25/2010       $157,963,990   The OIG identified 1.98 million
Optimization:                                                          SF of excess space. The Postal
Northern New                                                           Service agreed with
Jersey District                                                        recommendations but disagreed
                                                                       with the monetary impact.
Facilities          DA-AR-10-004        6/1/2010        $3,961,034     The OIG found the Postal
Optimization:                                                          Service did not obtain best value
Controls Over                                                          in all facility disposal
the Selling of                                                         transactions in FYs 2008 and
                                                                       2009. The Postal Service
Assets
                                                                       agreed with the
                                                                       recommendations but disagreed
                                                                       internal controls were weak.




                                                   11
Nationwide Facility Optimization                                                           DA-AR-11-009



                                      Appendix B: Monetary Impact

                                           Statistical Projection Data
                                            MONETARY BENEFITS
     Nationwide Value of Excess Space (projected results plus results from
                                                                                      $3,483,756,908
     three survey audits)

     Less: Area audit results (reported monetary impact from seven area
     audit reports)                                                                    $844,274,050

     Less: Survey audit results (reported monetary impact from three survey
                                                                                       $627,739,231
     audits)

     Less: Other district audit results (reported monetary impact from a
     network operations audit)                                                          $19,396,129

            TOTAL MONETARY IMPACT (Funds Put to Better Use) 13                        $1,992,347,498




13
     Funds that could be used more efficiently by implementing recommended actions.



                                                         12
Nationwide Facility Optimization                                DA-AR-11-009



                            Appendix C: Management’s Comments




                                           13
Nationwide Facility Optimization        DA-AR-11-009




                                   14
